OIG Audit Report GR-50-06-003

Use of Equitable Sharing Revenues by the St. Louis County Police DepartmentClayton, Missouri

Audit Report GR-50-06-003


April 2006
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the St. Louis County, Missouri, Police Department (Police Department).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1   During the period of January 1, 2003, through December 31, 2004, the Police Department was awarded DOJ equitable sharing revenues totaling $4,031,767 and property valued at $37,211 to support law enforcement operations. 
We reviewed the Police Departments compliance with six essential equitable sharing guidelines:   (1) accounting for equitable sharing receipts, (2) equitable sharing agreements and annual certifications, (3) accounting for and use of equitably shared funds, (4) interest earned on equitable sharing funds, (5) use of equitably shared property, and (6) supplanting.  We determined that the Police Department generally complied with the guidelines.  However, we found weaknesses in two areas as identified below.

We identified $154,660 in questioned costs related to the use of equitable sharing revenues for unallowable purposes. 
We identified a disbursement of equitable sharing funds of $1,566 from the U.S. Marshals Service (USMS) that the Police Department did not receive.

The results of our work are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope and methodology appear in Appendix I.  We discussed the results of our audit with Police Department officials and have included their comments in the report, as applicable.




Footnote

The DOJ asset forfeiture program has three primary goals:   (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law enforcement.